Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  INDIANA STATE MEDICAID
   FRAUD CONTROL UNIT:
    2013 ONSITE REVIEW




                        Suzanne Murrin
                  Deputy Inspector General for
                   Evaluation and Inspections

                         July 2014
                       OEI-07-13-00250
EXECUTIVE SUMMARY: INDIANA STATE MEDICAID FRAUD CONTROL
UNIT: 2013 ONSITE REVIEW
OEI-07-13-00250

WHY WE DID THIS STUDY

The Office of Inspector General (OIG) oversees the activities of all Medicaid Fraud
Control Units (MFCUs or Units). As part of this oversight, OIG conducts periodic
reviews of all Units and prepares public reports based on these reviews. The reviews
assess Unit performance in accordance with the 12 MFCU performance standards and
monitor Unit compliance with Federal grant requirements.

HOW WE DID THIS STUDY

We conducted an onsite review in May 2013. We based our review on an analysis of
data from seven sources: (1) a review of policies, procedures, and documentation on the
Unit’s operations, staffing, and caseload for fiscal years (FYs) 2010 through 2012;
(2) a review of financial documentation for that timeframe; (3) structured interviews with
key stakeholders; (4) a survey of Unit staff; (5) structured interviews with the Unit’s
management; (6) an onsite review of a sample of case files that were open in
FYs 2010 through 2012; and (7) an onsite observation of Unit operations.

WHAT WE FOUND

From FYs 2010 through 2012, the Unit reported combined civil and criminal recoveries
exceeding $110 million and 105 convictions. The Unit did not exercise proper fiscal
controls over claimed expenditures and program income, and it did not maintain adequate
internal controls of the equipment in its possession. Documented supervisory approval to
open cases was missing in an estimated 77 percent of the case files, and documented
supervisory approval to close cases was missing in an estimated 18 percent of the
closed-case files. In addition, the Unit did not maintain a training plan that included an
annual minimum number of training hours for each professional discipline and the Unit’s
MOU with Indiana’s State Medicaid agency did not reflect current law and practice.
Finally, the Unit did not timely refer 25 convictions to OIG for the purpose of program
exclusion.

WHAT WE RECOMMEND

We recommend that the Unit work with OIG’s MFCU oversight division to ensure
compliance with the 12 performance standards. The Indiana Unit concurred with all five
of our recommendations.
TABLE OF CONTENTS
Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................6 

           For FYs 2010 through 2012, the Unit reported combined civil 

           and criminal recoveries exceeding $110 million and 

           105 convictions ................................................................................6 

           The Unit did not exercise proper fiscal controls over claimed 

           expenditures and receipt of settlement amounts ..............................7 

           The Unit did not maintain adequate internal controls of the 

           equipment in its possession..............................................................7 

           Unit case files lacked documented supervisory approvals and 

           reviews .............................................................................................8 

           The Unit did not maintain a training plan that included an 

           annual minimum number of training hours for each 

           professional discipline ...................................................................10 

           The Unit’s MOU with the State Medicaid agency did not 

           reflect current law and practice......................................................10 

           The Unit did not timely refer 25 convictions to OIG for the 

           purpose of program exclusion ........................................................11

           Other observations: Data systems .................................................11

Conclusion and Recommendations ............................................................12 

Unit Comments and Office of Inspector General Response .....................14 

Appendixes ................................................................................................15 

           A: 1994 Performance Standards ...................................................15 

           B: 2012 Revised Performance Standards ......................................19 

           C: Detailed Methodology..............................................................26 

           D: Investigations Opened and Closed by Provider Category 

           for Federal Fiscal Years 2010 Through 2012 .................................29 

           E: Medicaid Fraud Control Unit Referrals by Provider 

           Category for Federal Fiscal Years 2010 Through 2012 .................31 

           F: Point Estimates and 95-Percent Confidence Intervals Based 

           on Reviews of Case Files...............................................................32 

          G: Unit Comments ........................................................................33 

Acknowledgments......................................................................................37 

                   OBJECTIVE
                   To conduct an onsite review of the Indiana State Medicaid Fraud Control
                   Unit (MFCU or Unit).

                   BACKGROUND
                   The mission of the State MFCUs, as established by Federal statute, is to
                   investigate and prosecute Medicaid provider fraud and patient abuse and
                   neglect under State law.1 Under the Medicaid statute, each State must
                   maintain a certified Unit, unless the Secretary of Health and Human Services
                   determines that operation of a Unit would not be cost-effective because
                   (1) minimal Medicaid fraud exists in that State, and (2) the State has other,
                   adequate safeguards to protect Medicaid beneficiaries from abuse and
                   neglect.2 Currently, 49 States and the District of Columbia (States) have
                   created such Units.3 In fiscal year (FY) 2013, combined Federal and State
                   grant expenditures for the Units totaled $230 million, of which Federal funds
                   represented $172.5 million. 4 That year, the 50 Units employed
                   1,912 individuals.
                   To carry out its duties and responsibilities in an effective and efficient
                   manner, each Unit must employ an interdisciplinary staff that consists of at
                   least an investigator, an auditor, and an attorney.5 Unit staff review
                   complaints provided by the State Medicaid agency and other sources and
                   determine the potential for criminal prosecution. In FY 2013, the 50 Units
                   collectively reported 1,341 convictions and 879 civil settlements or
                   judgments.6 That year, the Units reported recoveries of approximately
                   $2.5 billion.7
                   Units are required to have either Statewide authority to prosecute cases or
                   formal procedures to refer suspected criminal violations to an office with
                   such authority.8 Units must be located in the State Attorney General’s office

                   1
                     Social Security Act (SSA) § 1903(q)(3).

                   2
                     SSA §§ 1902(a)(61). Regulations at 42 CFR § 1007.11(b)(1) add that the Unit’s 

                   responsibilities may include reviewing complaints of misappropriation of patients’ private 

                   funds in residential health care facilities. 

                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana Islands, 

                   Puerto Rico, and the U.S. Virgin Islands have not established Units. 

                   4
                     FY references in this report are based on the Federal FY (October 1 through September 30). 

                   5
                     SSA § 1903(q)(6) and 42 CFR § 1007.13.

                   6
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2013 Grant Expenditures and 

                   Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on

                   July 16, 2014. 

                   7
                     Ibid. 

                   8
                     SSA § 1903(q)(1). 



Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                               1
                   or another State government office with Statewide prosecutorial authority, or
                   operate under a formal arrangement with the State Attorney General’s office.9
                   In Indiana and 43 other States, the Units are located within offices of State
                   Attorneys General that have prosecutorial authority. In the remaining six
                   States, the Units are located in other State agencies.10 Generally, Units within
                   other State agencies must refer cases to other offices with prosecutorial
                   authority, such as an Attorney General or State’s Attorney.11
                   Each Unit must be a single, identifiable entity of the State government,
                   distinct from the State Medicaid agency, and each Unit must develop a
                   formal agreement—i.e., a Memorandum of Understanding (MOU)—that
                   describes the Unit’s relationship with that agency.12
                   Oversight of the MFCU Program
                   The Secretary of Health and Human Services delegated to the Office of
                   Inspector General (OIG) the authority to both annually certify the Units and to
                   administer grant awards to reimburse States for a percentage of their costs of
                   operating certified Units.13 All Units are currently funded by the Federal
                   Government on a 75-percent matching basis, with the States contributing the
                   remaining 25 percent.14 To receive Federal reimbursement, each Unit must
                   submit an application to OIG.15 OIG reviews the application and notifies the
                   Unit of its approval and certification. Approval and certification are for a
                   1-year period; the Unit must be recertified each year thereafter.16
                   Under the Medicaid statute, States must operate Units that effectively carry out
                   their statutory functions and meet program requirements.17 OIG developed and
                   issued 12 performance standards to define the criteria it applies in assessing
                   whether a Unit is effectively carrying out statutory functions and meeting




                   9
                     SSA § 1903(q)(1). 59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at
                   http://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                   mfcu/files/Performance%20Standards.pdf on May 15, 2013. 

                   10
                      The Units share responsibility for protecting the integrity of the Medicaid program with

                   the section of the State Medicaid agency that functions as the Program Integrity Unit. Some 

                   States also employ a Medicaid Inspector General who conducts and coordinates the State 

                   agency’s activities to combat fraud, waste, and abuse in this area. 

                   11
                      SSA § 1903(q).

                   12
                      SSA § 1903(q)(2); 42 CFR §§ 1007.5 and 1007.9(d).

                   13
                      The portion of funds reimbursed to States by the Federal government for its share of

                   expenditures for the Federal Medicaid program, including the MFCUs, is called Federal

                   Financial Participation (FFP). 

                   14
                      SSA § 1903(a)(6)(B).

                   15
                      42 CFR § 1007.15(a). 

                   16
                      42 CFR § 1007.15(b) and (c). 

                   17
                      SSA § 1902(a)(61).



Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                               2
                   program requirements.18 Examples of criteria include maintaining an adequate
                   caseload through referrals from several sources, maintaining an annual training
                   plan for all professional disciplines (i.e., for attorneys, investigators, and
                   auditors), and establishing policy and procedure manuals to reflect the Unit’s
                   operations. (See Appendixes A and B for complete listings of the performance
                   standards from 1994 and of the revised standards from 2012, respectively.)
                   Indiana State MFCU
                   The Indiana Medicaid Fraud Control Unit is a component of the Office of the
                   Indiana Attorney General. At the time of our review, the Unit’s
                   49 employees worked from the Unit’s central office in Indianapolis, as well
                   as 9 regional offices located throughout the State.19, 20 The Unit director,
                   deputy director, and three of the Unit’s five supervisors work in the central
                   office, while two supervisors work from regional offices.
                   The Unit staff is divided into two sections: Litigation and Investigations.
                   The Unit director directly supervises the Unit attorneys, who are assigned to
                   the Litigation section.21 The Unit deputy director, who reports to the Unit
                   director, is also the chief investigator and is responsible for managing the
                   four supervisors within the Investigations section. Each supervisor manages
                   the day-to-day activities of an assigned team of investigators, auditors, and
                   support staff. Two supervisors work from Indianapolis and manage staff in
                   that office. Another supervisor works from Hobart, and a fourth supervisor
                   works from New Albany. The Hobart supervisor manages the staff in the
                   northern regional offices, and the New Albany supervisor manages the staff
                   in the southern regional offices.
                   For FY 2012, the Indiana Unit expended all but $600 of its $3.4 million in
                   authorized Federal funds and an additional $1.1 million in State matching
                   funds.22 Total combined Federal and State Medicaid expenditures in the




                   18
                      59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov/fraud/medicaid-
                   fraud-control-units-mfcu/files/Performance%20Standards.pdf on May 15, 2013. OIG
                   published revised performance standards on June 1, 2012, at 77 Fed. Reg. 32645 (online at
                   http://oig.hhs.gov/authorities/docs/2012/PerformanceStandardsFinal060112.pdf).
                   19
                      The Unit’s central office is located in the State capital of Indianapolis. Regional offices
                   are located in Angola, Danville, Evansville, Hobart, Mishawaka, Muncie, New Albany,
                   Warsaw, and Westville.
                   20
                      OIG analysis of the 2012 Indiana Recertification Questionnaire to MFCU Director.
                   Review Period April 1, 2011, through March 31, 2012.
                   21
                      One Litigation section attorney supervises the section’s interns and legal support staff.
                   22
                      OIG analysis of State form SF-425 for FY 2012.


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                                     3
                   State of Indiana increased from $6.2 billion in FY 2010 to $7.9 billion in
                   FY 2012.23
                   For FYs 2010 through 2012, the Unit received an average of 1,912 referrals
                   per year. The Indiana State Department of Health (ISDH) is the State agency
                   responsible for licensing and surveying long-term care facilities and is the
                   most significant source of referrals received by the Unit. ISDH forwards to
                   the Unit every complaint that it receives. The Office of Medicaid Policy and
                   Planning (OMPP) is the State Medicaid agency that houses the Medicaid
                   Program Integrity Unit, which referred 66 prescreened cases to the Unit
                   during FYs 2010 through 2012. Additional referral sources include calls to
                   the Unit hotline; a complaint form located on the Web site of the Office of
                   the Indiana Attorney General; OIG; other State agencies; and providers.
                   Unit staff enter every referral into the Unit’s case management and tracking
                   system. Duplicate referrals are combined into a single complaint to preserve
                   information. An Investigations section supervisor determines whether the
                   Unit has jurisdiction and whether an investigation is warranted. Depending
                   on the available facts and circumstances, the supervisor may elect to close a
                   case without an investigation, initiate a preliminary investigation to obtain
                   more information, or authorize a full investigation. Once an investigation is
                   complete, the case is reviewed by a supervisor who determines whether to
                   close the matter or refer the case to a prosecutor.
                   The Office of the Indiana Attorney General does not have authority to initiate
                   prosecution for health care crimes. Therefore, the Unit refers cases for
                   prosecution to one of the two United States (U.S.) Attorney’s Offices in
                   Indiana or to the appropriate county prosecutor. County prosecutors may
                   elect to prosecute a case, decline it, or refer it back to the MFCU to pursue in
                   the local jurisdiction.
                   The Litigation section is responsible for prosecuting cases jointly with county
                   prosecutors and for tracking and prosecuting “global”24 and State-only25 qui
                   tam (whistleblower) cases. Unit attorneys may also be asked to provide legal
                   advice regarding cases under investigation.




                   23
                      OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and
                   Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                   mfcu/expenditures_statistics/fy2012-statistical-chart.htm on May 15, 2013.
                   24
                      “Global” cases are civil false-claims actions involving the U.S. Department of Justice and
                   other State MFCUs. The National Association of Medicaid Fraud Control Units facilitates
                   the coordination of global cases.
                   25
                      Indiana False Claims and Whistleblower Protection Act, Indiana Code § 5-11-5.5-4 (c).


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                                    4
                   METHODOLOGY
                   We conducted the onsite review in May 2013. We based our review on an
                   analysis of data from seven sources: (1) a review of policies, procedures, and
                   documentation on the Unit’s operations, staffing, and caseload for
                   FYs 2010 through 2012; (2) a review of financial documentation for that
                   timeframe; (3) structured interviews with key stakeholders; (4) a survey of
                   Unit staff; (5) structured interviews with the Unit’s management; (6) an
                   onsite review of a sample of case files that were open in FYs 2010 through
                   2012; and (7) an onsite observation of Unit operations. (Appendix C
                   contains the details of our methodology.)
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General on
                   Integrity and Efficiency.




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                 5
                   FINDINGS
                   For FYs 2010 through 2012, the Unit reported combined
                   civil and criminal recoveries exceeding $110 million and
                   105 convictions
                   The Unit reported total combined criminal and civil recoveries of nearly
                   $110 million for FYs 2010 through 2012. Recoveries decreased from
                   $33 million in FY 2010 to $29 million in FY 2011, then increased to
                   $47 million in FY 2012. Settlements for global cases accounted for
                   $91 million of the total $110 million in Unit recoveries over the 3-year
                   period. (See Table 1 for details regarding criminal and civil recoveries.)
                   During our review period, the Unit opened 4,089 cases and closed
                   3,975 cases. The Unit specified that 2,371 referrals lacked sufficient
                   indication of a crime to warrant a full investigation and that 130 referrals
                   were duplicate complaints that were combined into another matter. (See
                   Appendix D for more information on investigations opened and closed by
                   provider category.) The Unit reported 133 referrals for prosecution, with
                   105 convictions of 94 individuals and entities for health care fraud, patient
                   abuse and neglect, or financial exploitation.
                   The Unit reported 1,187 abuse and neglect referrals from ISDH in 2010,
                   1,074 in 2011, and 500 in 2012. With regard to the much-lower number for
                   2012, the Unit director stated that because of a lack of resources, the Unit had
                   not recorded all referrals received from ISDH that year. The Unit director
                   also stated that subsequent to 2012, the Unit had recorded and reported
                   correctly to OIG the number of referrals received from ISDH. (For
                   additional information on Unit referrals, see Appendix E.)
                   Table 1: Indiana MFCU Criminal and Civil Recoveries, FYs 2010–2012

                    Type of                                                                                       Total
                                                   FY 2010             FY 2011              FY 2012
                    Recovery                                                                                 Recoveries

                    Criminal
                                                $2,302,000          $3,238,390           $5,595,123         $11,135,513
                    Recoveries

                    Global
                                              $28,443,364          $24,946,873         $37,416,777          $90,807,014
                    Recoveries
                    Nonglobal
                                                $2,359,058          $1,702,126           $4,142,286          $8,203,470
                    Civil Recoveries

                        Total
                                              $33,104,422          $29,887,389          $47,154,186        $110,145,997
                        Recoveries

                   Source: OIG review of Unit self-reported data and Quarterly Statistical Reports, FYs 2010–2012.




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                                           6
                   The Unit did not exercise proper fiscal controls over
                   claimed expenditures and receipt of settlement amounts
                   According to the 1994 and 2012 Performance Standard 11, the Unit should
                   exercise proper fiscal control over Unit resources. However, we found that
                   during the review period of FYs 2010 through 2012, the Unit lacked
                   adequate fiscal internal controls related to claimed expenditures and
                   settlement amounts. We also found evidence that the Unit lacked adequate
                   fiscal internal controls in FY 2013, a period subsequent to our review
                   timeframe.
                   We found several examples of inadequate fiscal internal controls related to
                   expenditures. First, we were unable to reconcile $4,900 of the Unit’s
                   $13.2 million in claimed costs reported on the Unit’s Financial Status
                   Reports (FSRs) for the review period. Second, the Unit’s financial
                   reconciliation process did not appear to be subject to a second level of
                   review. Third, during the course of our review the Unit had difficulty
                   locating requested financial information and providing it to OIG; the Unit
                   attributed this to the retirement of the Unit’s controller in August 2013.
                   Also, for FY 2013, subsequent to our review period, the Unit’s FSR reported
                   expenditures of nearly $78,000 more in Federal funds than authorized on the
                   Unit’s notice of award. To cover funds that the Unit had overspent, OIG
                   provided the Unit with a supplement, which the Unit was required to match
                   with $25,896 of its own funds.
                   Finally, for FY 2010, we found instances of inadequate fiscal internal
                   controls related to settlement amounts. We identified civil settlement funds
                   that the Unit received directly and retained. Per OIG’s State Fraud Policy
                   Transmittal Number 10-01, Program Income—which reiterated the Centers
                   for Medicare & Medicaid Services (CMS) policy26 regarding the reporting of
                   program income and settlements—the Unit should have instead sent these
                   funds, along with other civil settlement amounts, to the State Medicaid
                   agency to calculate the Federal share and return the appropriate portion to the
                   Federal government.

                   The Unit did not maintain adequate internal controls of
                   the equipment in its possession
                   According to 1994 and 2012 Performance Standard 11(b), the Unit should
                   maintain an equipment inventory that is updated regularly to reflect all
                   property in the Unit’s possession. Federal regulations require a physical
                   inventory of property (i.e., equipment) to be conducted at least once every



                   26
                        CMS State Health Official Letter #08-004.


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                  7
                   2 years.27 State guidelines also require a documented physical inventory to
                   be conducted annually.28
                   We found that the Unit did not conduct physical inventories of its property
                   during our review period and lacked policies and procedures to ensure that
                   annual physical inventories were conducted and maintained for auditing
                   purposes. Consequently, the Unit was unable to locate a lateral file valued at
                   $947, purchased in FY 2010. Additionally, the Unit had five computers with
                   State of Indiana property tag numbers that did not correspond to numbers on
                   its equipment inventory. The lack of physical inventories could result in the
                   inability to identify additional property and equipment purchased with Federal
                   funds.
                   Unit case files lacked documented supervisory
                   approvals and reviews
                   According to 1994 Performance Standard 6(b) and 2012 Performance
                   Standard 5(b), Unit supervisors should approve the opening and closing of
                   cases to ensure a continuous case flow and timely completion of cases.
                   Supervisory approval to open and close cases demonstrates that Unit
                   supervisors are monitoring the intake of cases and the timeliness of case
                   resolutions, thereby promoting the efficiency and effectiveness of Unit staff.
                   During our onsite review, Unit management and supervisory staff specified
                   that authorization to open and close cases is documented by email and
                   uploaded to the Unit’s electronic case management system. From our case
                   file review, we estimate that 77 percent of the case files lacked documented
                   supervisory approval to open cases and an estimated 18 percent of
                   closed-case files lacked documented supervisory approval to close cases.
                   Global cases and cases “closed without investigation” composed an
                   estimated 52 percent of the case population and were not included in our
                   review, as the Unit did not have a formal process of supervisory approval for
                   the opening or closing of these types of cases.
                   According to 1994 Performance Standard 6(c) and 2012 Performance
                   Standard 7(a), supervisory reviews should be “conducted periodically and
                   noted in the case file” to ensure timely case completion.29 An estimated
                   69 percent of case files lacked documentation indicating one or more
                   supervisory reviews. (See Appendix F for all estimates and 95-percent
                   confidence intervals for projections.)



                   27
                      45 CFR § 92.32(d)(2).

                   28
                      Section 6 of the State of Indiana’s Capital Asset Policy (July 1, 2009, Revision).

                   29
                      For the purposes of this report, supervisory approval to open and close a case does not

                   constitute a supervisory review. Periodic supervisory review indicates that a supervisor

                   reviewed a case more than once between the case’s opening and closing. 



Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                                  8
                   The Unit’s deputy director reported that each supervisor decides how often to
                   conduct periodic reviews of case files—one supervisor conducts reviews on a
                   regular basis, while the other three supervisors conduct their reviews on an
                   informal basis. One supervisor conducts his case file reviews every 6 months
                   via email; during our onsite review, he shared copies of those documents
                   with the review team. The review team noted that investigators assigned to
                   this supervisor selected the cases for supervisory review during each review
                   period. A second supervisor reported that his team conducts quarterly case
                   file reviews as a group, where the team provides feedback on each
                   investigator’s cases. A third supervisor reported daily reviews of the latest
                   entries recorded in the case management and tracking system. The remaining
                   supervisor reported that his case file reviews are less formal because he
                   “works cases with [investigators] every day” and is familiar with each
                   investigation. The Unit director also acknowledged that the supervisors
                   “have not been making [supervisory review] entries” into the case
                   management and tracking system.
                   Although we found no evidence to suggest that supervisors lacked awareness
                   of the cases assigned to their teams, the lack of a formalized supervisory case
                   review process may be problematic. For example, we noted one case in our
                   sample that lacked evidence of investigative progress for an extended period
                   of time. Entries into the case management and tracking system reflect that
                   the complaint was received in early 2006 and was later combined with a
                   duplicate case in mid-2007. No activity was recorded until 2009, when a
                   series of case notes was entered into the system. No further activity occurred
                   until 2012, when the case was referred to State Medicaid agency. The lack of
                   progress on the case was attributed to the investigator’s working on another
                   important case with an external agency. In another example, a case was
                   declined for prosecution in 2011 but was never closed. The lack of case
                   closings in these examples was identified only after the review team provided
                   the list of sampled case files selected for review. One case was closed just
                   prior to our onsite review, and the case supervisor closed the second case
                   while the review team was onsite.
                   The first case example cited above did not adhere to 1994 Performance
                   Standard 6(a) and 2012 Performance Standard 5(a), which state that each
                   stage of an investigation and prosecution is to be completed in an appropriate
                   timeframe. In both instances, the cases were not closed appropriately and did
                   not adhere to 2012 Performance Standard 5(b), which states: “Supervisors
                   approve the opening and closing of all investigations and review the progress
                   of cases and take action as necessary to ensure that each stage of an
                   investigation and prosecution is completed in an appropriate timeframe.”




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                 9
                   The Unit did not maintain a training plan that included
                   an annual minimum number of training hours for each
                   professional discipline
                   According to 1994 Performance Standard 12(b) and 2012 Performance
                   Standard 12(a), the Unit should maintain an annual training plan for each
                   professional discipline that includes an annual minimum number of training
                   hours. The Unit did not have an annual training plan. However, the Unit’s
                   policies and procedures manual specifies that all new staff members are
                   required to attend basic Medicaid training and all new investigators must also
                   complete a weeklong training course at the Indiana Law Enforcement
                   Academy. Further, all employees are encouraged to attend one out-of-State
                   training annually, to obtain training that is unavailable locally. Each
                   employee’s performance plan includes an annual development component for
                   identifying needs related to professional development, continuing education,
                   and other types of training. All staff who answered the training-related
                   questions on the staff survey reported that the Unit provided training
                   opportunities and that the training they received aided the mission of the
                   Unit.30
                   The Unit’s MOU with the State Medicaid agency did not
                   reflect current law and practice
                   According to 2012 Performance Standard 10, the Unit is to ensure that its
                   MOU “reflects current practice, policy, and legal requirements.” The Unit’s
                   MOU did not include a provision describing the referral process between the
                   Unit and the State Medicaid agency for providers who are subject to a
                   payment suspension on the basis of a credible allegation of fraud.31
                   Therefore, the Unit did not meet 2012 Performance Standard 10(b).
                   Subsequent to our onsite review, the Unit incorporated payment-suspension
                   provisions into a revised MOU.




                   30
                      Although we reviewed Unit training, we did not evaluate the staff’s professional
                   qualifications. Rather, we applied the performance standards to evaluate whether the Unit
                   maintained a formal training plan for each professional discipline and assessed training
                   opportunities specific to Unit operations. We recognize that attorneys, investigators, and
                   auditors receive professional and/or law enforcement training, and that the lack of an annual
                   training plan does not suggest that professional staff are unqualified.
                   31
                      The Affordable Care Act, § 6402(h)(2), requires State Medicaid programs—as a condition
                   of receiving FFP—to suspend payments to providers for whom there is a credible allegation
                   of fraud, unless good cause exists to not suspend payments. One way to establish good
                   cause is for the MFCU to inform the Medicaid agency that the suspension would
                   compromise or jeopardize its investigation of the provider. CMS and OIG implemented this
                   provision in revisions to 42 CFR §§ 455.23 and 1007.9(e) effective March 25, 2011 (76 Fed.
                   Reg. 5862).


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                               10
                   The Unit did not timely refer 25 convictions to OIG for
                   the purpose of program exclusion
                   According to 1994 Performance Standard 8(d), the Unit has the responsibility
                   to transmit to OIG “reports of convictions, and copies of Judgment and
                   Sentence or other acceptable documentation within 30 days or other reasonable
                   time period.”32 The 2012 revised Performance Standard 8(f) states that it is
                   the Unit’s responsibility to transmit “all pertinent information on MFCU
                   convictions within 30 days of sentencing, including charging documents,
                   plea agreements, and sentencing orders,” and does not add “or other
                   reasonable time period” to the 30-day timeframe. Of the 105 convictions,
                   25 were not referred timely to OIG for exclusion. The Unit never referred
                   11 convictions to OIG, and it referred 14 convictions after the 30-day
                   timeframe. One referral that OIG received in 2012 had been forwarded
                   468 days after sentencing.


                   Other observations: Data systems
                   In its 2012 Annual Report to OIG, the Unit reported an issue of concern
                   regarding electronic medical records and other potential digital evidence
                   seized during the course of an investigation. The Unit described a situation
                   in which investigators seized more than one million computer files and
                   required the resources of a U.S. Attorney’s Office’s data management
                   system to search, sort, and organize the data. The Unit also noted that it is
                   impractical to rely on the Offices of the U.S. Attorneys for data management
                   capabilities in all such cases and that it would need additional funding from
                   the State to obtain an in-house system capable of storing and effectively
                   managing large volumes of electronic records and evidence. This issue
                   remains unresolved.




                   32
                     Under 42 U.S.C. § 1320a-7(a), OIG is required to exclude from participation in Federal
                   health care programs any person or entity convicted of a criminal offense related to the
                   delivery of an item or service under the Medicaid program or to the neglect or abuse of
                   patients in residential health care facilities. See also 42 CFR § 1001.1901.


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                               11
                   CONCLUSION AND RECOMMENDATIONS
                   For FYs 2010 through 2012, the Unit reported combined civil and criminal
                   recoveries of more than $110 million, of which $91 million represented
                   global case recoveries. The Unit referred 133 cases for prosecution, which
                   resulted in 105 convictions against 94 individuals and entities for health care
                   fraud, patient abuse and neglect, or financial exploitation.
                   The Unit lacked sufficient fiscal internal control policies and procedures to
                   ensure the proper reporting of its income and expenditures. Further, internal
                   controls regarding the inventory of property (i.e., equipment) had weaknesses
                   that resulted in our inability to locate and identify ownership of equipment
                   under the Unit’s control.
                   Seventy-seven percent of case files lacked documentation of supervisory
                   approval to open a case, and 18 percent of closed case files lacked
                   documentation of supervisory approval to close a case. Additionally,
                   69 percent of case files reviewed lacked documentation of at least one
                   supervisory review. Our review also found that the Unit lacks a formalized
                   supervisory case review process.
                   The Unit did not maintain a training plan that included an annual minimum
                   number of training hours for each professional discipline. The Unit’s MOU
                   with the State Medicaid agency did not include language regarding the
                   suspension of payments in cases of fraud. The Unit did not timely refer the
                   convictions of 25 providers to OIG for the purpose of program exclusion, in
                   accordance with the Performance Standards.
                   We recommend that the Indiana Unit:
                   Develop policies and procedures to address fiscal internal
                   control weaknesses
                   The Unit should implement policies and procedures to correct fiscal internal
                   control weaknesses affecting reconciliation reporting, second level financial
                   management reviews, grant funds expenditures, and the allocation of civil
                   settlement proceeds. Finally, the Unit should work with the Indiana
                   Medicaid program to calculate and return the appropriate, if any, Federal
                   share of civil settlement amounts to the Federal government.
                   Establish policies and procedures to ensure annual physical
                   inventories of Unit property
                   Ensure that all case files contain opening and closing
                   supervisory approvals and documented supervisory reviews
                   The Unit should take action to ensure that all case files include documented
                   supervisory approvals for the opening and closing of cases. Additionally, the




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                  12
                   Unit should incorporate a periodic supervisory review policy into the policies
                   and procedures manual.
                   Establish a training plan that includes an annual minimum
                   number of training hours for each professional discipline
                   Refer individuals for program exclusion to OIG within 30 days of
                   sentencing
                   The Unit should make certain that all individuals and entities convicted of
                   fraud, abuse, or neglect are reported within 30 days of their sentencing, in
                   accordance with Performance Standard 8(f) of the 2012 Performance
                   Standards.




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                13
                   UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The Unit concurred with the five report recommendations.
                   Regarding the first recommendation, the Unit partially concurred with the
                   finding, and concurred with the recommendation. The Unit reported that
                   claimed expenditures will be subjected to a second-level review to ensure
                   accounting accuracy. The Unit explained that the retirement of the Unit’s
                   controller during the review was a contributing factor in the difficulty in
                   providing requested information, which should not be a concern in the future.
                   Also, the Unit acknowledged that any future requests for supplemental
                   funding will be submitted prior to the end of the grant period. Finally, the
                   Unit reported that it will work with the State Medicaid agency to return any
                   Federal civil share of settlement amounts that may be due to the Federal
                   Government.
                   Regarding the second recommendation, the Unit concurred and noted that
                   following our onsite review, staff located a file cabinet that exactly matched
                   the description of the item that was not found during the onsite review.
                   However, the equipment was missing an inventory tag.
                   Regarding the third recommendation, the Unit concurred and reported having
                   implemented a new standardized procedure for the documentation of
                   supervisory approvals and reviews.
                   Regarding the fourth recommendation, the Unit concurred and has reported
                   having developed a written training plan that includes a minimum number of
                   training hours for each professional discipline.
                   Regarding the fifth recommendation, the Unit concurred. The Unit explained
                   that it does not possess independent prosecution authority, and as such must
                   rely on county prosecutors to report when a plea is negotiated and entered.
                   The Unit stated that nevertheless, it will strive to report all convictions as
                   required.
                   The full text of the Unit’s comments is provided in Appendix G. We did not
                   make any changes to the report as a result of the Unit’s comments.




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                 14
                   APPENDIX A
                   1994 Performance Standards33
                   1. 	A Unit will be in conformance with all applicable statutes, regulations
                       and policy transmittals. In meeting this standard, the Unit must meet,
                       but is not limited to, the following requirements:
                        a.	 The Unit professional staff must consist of permanent employees
                            working full-time on Medicaid fraud and patient abuse matters.
                        b.	 The Unit must be separate and distinct from the single State Medicaid
                            agency.
                        c.	 The Unit must have prosecutorial authority or an approved formal
                            procedure for referring cases to a prosecutor.
                        d.	 The Unit must submit annual reports, with appropriate certifications,
                            on a timely basis.
                        e.	 The Unit must submit quarterly reports on a timely basis.
                        f.	 The Unit must comply with the Americans with Disabilities Act, the
                            Equal Employment opportunity requirements, the Drug Free
                            workplace requirements, Federal lobbying restrictions, and other such
                            rules that are made conditions of the grant.
                   2. 	A Unit should maintain staff levels in accordance with staffing
                       allocations approved in its budget. In meeting this standard, the
                       following performance indicators will be considered:
                        a.	 Does the Unit employ the number of staff that was included in the
                            Unit's budget as approved by the OIG?
                        b.	 Does the Unit employ the number of attorneys, auditors, and 

                            investigators that were approved in the Unit's budget? 

                        c.	 Does the Unit employ a reasonable size of professional staff in
                            relation to the State's total Medicaid program expenditures?
                        d.	 Are the Unit office locations established on a rational basis and are
                            such locations appropriately staffed?
                   3. 	A Unit should establish policies and procedures for its operations, and
                       maintain appropriate systems for case management and case
                       tracking. In meeting this standard, the following performance indicators
                       will be considered:


                   33
                     59 Fed. Reg. 49080, Sept. 26, 1994. These performance standards were in effect for a
                   portion of our review period, and were superseded by the performance standards published
                   in June 2012.


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                           15
                       a.	 Does the Unit have policy and procedure manuals?
                       b.	 Is an adequate, computerized case management and tracking system
                           in place?
                   4. 	A Unit should take steps to ensure that it maintains an adequate
                       workload through referrals from the single State agency and other
                       sources. In meeting this standard, the following performance indicators
                       will be considered:
                       a.	 Does the Unit work with the single State Medicaid agency to ensure
                           adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud referrals?
                       c.	 Does the Unit generate any of its own fraud cases?
                       d.	 Does the Unit ensure that adequate referrals of patient abuse 

                           complaints are received from all sources? 

                   5. 	A Unit’s case mix, when possible, should cover all significant provider
                       types. In meeting this standard, the following performance indicators
                       will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of 

                           providers in the State? 

                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the proportion
                           of Medicaid expenditures for particular provider groups?
                       d.	 Are there any special Unit initiatives targeting specific provider types
                           that affect case mix?
                       e.	 Does the Unit consider civil and administrative remedies when
                           appropriate?
                   6. 	A Unit should have a continuous case flow, and cases should be
                       completed in a reasonable time. In meeting this standard, the following
                       performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?
                       b.	 Are supervisors approving the opening and closing of investigations?
                       c.	 Are supervisory reviews conducted periodically and noted in the case
                           file?




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                    16
                   7. 	A Unit should have a process for monitoring the outcome of cases. In
                       meeting this standard, the following performance indicators will be
                       considered:
                       a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                       h.	 The numbers of administrative sanctions imposed.
                   8. 	A Unit will cooperate with the OIG and other Federal agencies,
                       whenever appropriate and consistent with its mission, in the
                       investigation and prosecution of health care fraud. In meeting this
                       standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud in
                           their State?
                       b.	 Does the Unit provide OIG regional management, and other Federal
                           agencies, where appropriate, with timely information concerning
                           significant actions in all cases being pursued by the Unit?
                       c.	 Does the Unit have an effective procedure for referring cases, when
                           appropriate, to Federal agencies for investigation and other action?
                       d.	 Does the Unit transmit to the OIG, for purposes of program
                           exclusions under section 1128 of the Social Security Act, reports of
                           convictions, and copies of Judgment and Sentence or other acceptable
                           documentation within 30 days or other reasonable time period?
                   9. 	A Unit should make statutory or programmatic recommendations,
                       when necessary, to the State government. In meeting this standard, the
                       following performance indicators will be considered:
                       a.	 Does the Unit recommend amendments to the enforcement provisions
                           of the State's statutes when necessary and appropriate to do so?
                       b.	 Does the Unit provide program recommendations to single State
                           agency when appropriate?
                       c.	 Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                    17
                    10. 	A Unit should periodically review its memorandum of 

                         understanding (MOU) with the single State Medicaid agency and 

                         seek amendments, as necessary, to ensure it reflects current law

                         and practice. In meeting this standard, the following performance 

                         indicators will be considered:

                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff of
                           the State Medicaid agency?
                       d.	 Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions taken
                           by the Medicaid agency concerning those recommendations?
                   11. 	The Unit director should exercise proper fiscal control over the Unit
                        resources. In meeting this standard, the following performance
                        indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                       c.	 Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                   12. 	A Unit should maintain an annual training plan for all professional
                        disciplines. In meeting this standard, the following performance
                        indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training requirement
                           for each professional discipline, and does the staff comply with the
                           requirement?
                       c.	 Are continuing education standards met for professional staff?
                       d.	 Does the training undertaken by staff aid to the mission of the Unit?




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                    18
                   APPENDIX B
                   2012 Revised Performance Standards34
                   1. 	A unit conforms with all applicable statutes, regulations, and policy
                       directives, including:
                          a.	 Section 1903(q) of the Social Security Act, containing the basic
                              requirements for operation of a MFCU;
                          b.	 Regulations for operation of a MFCU contained in 42 CFR part 1007;
                          c.	 Grant administration requirements at 45 CFR part 92 and Federal cost
                              principles at 2 CFR part 225;
                          d.	 OIG policy transmittals as maintained on the OIG Web site; and
                          e.	 Terms and conditions of the notice of the grant award.
                   2. 	A Unit maintains reasonable staff levels and office locations in
                       relation to the State’s Medicaid program expenditures and in
                       accordance with staffing allocations approved in its budget.
                          a.	 The Unit employs the number of staff that is included in the Unit’s
                              budget estimate as approved by OIG.
                          b.	 The Unit employs a total number of professional staff that is
                              commensurate with the State’s total Medicaid program expenditures
                              and that enables the Unit to effectively investigate and prosecute (or
                              refer for prosecution) an appropriate volume of case referrals and
                              workload for both Medicaid fraud and patient abuse and neglect.
                          c.	 The Unit employs an appropriate mix and number of attorneys,
                              auditors, investigators, and other professional staff that is both
                              commensurate with the State’s total Medicaid program expenditures
                              and that allows the Unit to effectively investigate and prosecute (or
                              refer for prosecution) an appropriate volume of case referrals and
                              workload for both Medicaid fraud and patient abuse and neglect.
                          d.	 The Unit employs a number of support staff in relation to its overall
                              size that allows the Unit to operate effectively.
                          e.	 To the extent that a Unit maintains multiple office locations, such
                              locations are distributed throughout the State, and are adequately
                              staffed, commensurate with the volume of case referrals and
                              workload for each location.




                   34
                        77 Fed. Reg. 32645 (June 1, 2012).


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                       19
                   3. 	A Unit establishes written policies and procedures for its operations
                       and ensures that staff are familiar with, and adhere to, policies and
                       procedures.
                       a.	 The Unit has written guidelines or manuals that contain current
                           policies and procedures, consistent with these performance standards,
                           for the investigation and (for those Units with prosecutorial authority)
                           prosecution of Medicaid fraud and patient abuse and neglect.
                       b.	 The Unit adheres to current policies and procedures in its operations.
                       c.	 Procedures include a process for referring cases, when appropriate, to
                           Federal and State agencies. Referrals to State agencies, including the
                           State Medicaid agency, should identify whether further investigation
                           or other administrative action is warranted, such as the collection of
                           overpayments or suspension of payments.
                       d.	 Written guidelines and manuals are readily available to all Unit staff,
                           either online or in hard copy.
                       e.	 Policies and procedures address training standards for Unit 

                           employees. 

                   4. 	A Unit takes steps to maintain an adequate volume and quality of
                       referrals from the State Medicaid agency and other sources.
                       a.	 The Unit takes steps, such as the development of operational
                           protocols, to ensure that the State Medicaid agency, managed care
                           organizations, and other agencies refer to the Unit all suspected
                           provider fraud cases. Consistent with 42 CFR 1007.9(g), the Unit
                           provides timely written notice to the State Medicaid agency when
                           referred cases are accepted or declined for investigation.
                       b.	 The Unit provides periodic feedback to the State Medicaid agency
                           and other referral sources on the adequacy of both the volume and
                           quality of its referrals.
                       c.	 The Unit provides timely information to the State Medicaid or other
                           agency when the Medicaid or other agency requests information on
                           the status of MFCU investigations, including when the Medicaid
                           agency requests quarterly certification pursuant to 42 CFR
                           455.23(d)(3)(ii).
                       d.	 For those States in which the Unit has original jurisdiction to
                           investigate or prosecute patient abuse and neglect cases, the Unit
                           takes steps, such as the development of operational protocols, to
                           ensure that pertinent agencies refer such cases to the Unit, consistent
                           with patient confidentiality and consent. Pertinent agencies vary by



Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                  20
                            State but may include licensing and certification agencies, the State 

                            Long Term Care Ombudsman, and adult protective services offices. 

                       e.	 The Unit provides timely information, when requested, to those
                           agencies identified in (D) above regarding the status of referrals.
                       f.	 The Unit takes steps, through public outreach or other means, to
                           encourage the public to refer cases to the Unit.
                   5. 	A Unit takes steps to maintain a continuous case flow and to complete
                       cases in an appropriate timeframe based on the complexity of the
                       cases.
                       a.	 Each stage of an investigation and prosecution is completed in an
                           appropriate timeframe.
                       b.	 Supervisors approve the opening and closing of all investigations and
                           review the progress of cases and take action as necessary to ensure
                           that each stage of an investigation and prosecution is completed in an
                           appropriate timeframe.
                       c.	 Delays to investigations and prosecutions are limited to situations
                           imposed by resource constraints or other exigencies.
                   6. 	A Unit’s case mix, as practicable, covers all significant provider types
                       and includes a balance of fraud and, where appropriate, patient
                       abuse and neglect cases.
                       a.	 The Unit seeks to have a mix of cases from all significant provider
                           types in the State.
                       b.	 For those States that rely substantially on managed care entities for
                           the provision of Medicaid services, the Unit includes a commensurate
                           number of managed care cases in its mix of cases.
                       c.	 The Unit seeks to allocate resources among provider types based on
                           levels of Medicaid expenditures or other risk factors. Special Unit
                           initiatives may focus on specific provider types.
                       d.	 As part of its case mix, the Unit maintains a balance of fraud and
                           patient abuse and neglect cases for those States in which the Unit has
                           original jurisdiction to investigate or prosecute patient abuse and
                           neglect cases.
                       e.	 As part of its case mix, the Unit seeks to maintain, consistent with its
                           legal authorities, a balance of criminal and civil fraud cases.




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                   21
                   7. 	A Unit maintains case files in an effective manner and develops a case
                       management system that allows efficient access to case information
                       and other performance data.
                       a.	 Reviews by supervisors are conducted periodically, consistent with
                           MFCU policies and procedures, and are noted in the case file.
                       b.	 Case files include all relevant facts and information and justify the
                           opening and closing of the cases.
                       c.	 Significant documents, such as charging documents and settlement
                           agreements, are included in the file.
                       d.	 Interview summaries are written promptly, as defined by the Unit’s
                           policies and procedures.
                       e.	 The Unit has an information management system that manages and
                           tracks case information from initiation to resolution.
                       f.	 The Unit has an information management system that allows for the
                           monitoring and reporting of case information, including the
                           following:
                                 1.	 The number of cases opened and closed and the reason that
                                     cases are closed.
                                 2.	 The length of time taken to determine whether to open a case
                                     referred by the State Medicaid agency or other referring
                                     source.
                                 3.	 The number, age, and types of cases in the Unit’s
                                     inventory/docket.
                                 4.	 The number of referrals received by the Unit and the number
                                     of referrals by the Unit to other agencies.
                                 5.	 The dollar amount of overpayments identified.
                                 6.	 The number of cases criminally prosecuted by the Unit or
                                     referred to others for prosecution, the number of individuals or
                                     entities charged, and the number of pending prosecutions.
                                 7.	 The number of criminal convictions and the number of civil
                                     judgments.
                                 8.	 The dollar amount of fines, penalties, and restitution ordered
                                     in a criminal case and the dollar amount of recoveries and the
                                     types of relief obtained through civil judgments or prefiling
                                     settlements.




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                    22
                   8. 	A Unit cooperates with OIG and other Federal agencies in the
                       investigation and prosecution of Medicaid and other health care
                       fraud.
                       a.	 The Unit communicates on a regular basis with OIG and other
                           Federal agencies investigating or prosecuting health care fraud in the
                           State.
                       b.	 The Unit cooperates and, as appropriate, coordinates with OIG’s
                           Office of Investigations and other Federal agencies on cases being
                           pursued jointly, cases involving the same suspects or allegations, and
                           cases that have been referred to the Unit by OIG or another Federal
                           agency.
                       c.	 The Unit makes available, to the extent authorized by law and upon
                           request by Federal investigators and prosecutors, all information in its
                           possession concerning provider fraud or fraud in the administration of
                           the Medicaid program.
                       d.	 For cases that require the granting of “extended jurisdiction” to
                           investigate Medicare or other Federal health care fraud, the Unit
                           seeks permission from OIG or other relevant agencies under
                           procedures as set by those agencies.
                       e.	 For cases that have civil fraud potential, the Unit investigates and
                           prosecutes such cases under State authority or refers such cases to
                           OIG or the U.S. Department of Justice.
                       f.	 The Unit transmits to OIG, for purposes of program exclusions under
                           section 1128 of the Social Security Act, all pertinent information on
                           MFCU convictions within 30 days of sentencing, including charging
                           documents, plea agreements, and sentencing orders.
                       g.	 The Unit reports qualifying cases to the Healthcare Integrity &
                           Protection Databank, the National Practitioner Data Bank, or
                           successor data bases.
                   9. 	A Unit makes statutory or programmatic recommendations, when
                       warranted, to the State government.
                       a.	 The Unit, when warranted and appropriate, makes statutory
                           recommendations to the State legislature to improve the operation of
                           the Unit, including amendments to the enforcement provisions of the
                           State code.
                       b.	 The Unit, when warranted and appropriate, makes other regulatory or
                           administrative recommendations regarding program integrity issues to
                           the State Medicaid agency and to other agencies responsible for
                           Medicaid operations or funding. The Unit monitors actions taken by


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                   23
                            the State legislature and the State Medicaid or other agencies in
                            response to recommendations.
                    10. 	A Unit periodically reviews its Memorandum of Understanding 

                         (MOU) with the State Medicaid agency to ensure that it reflects 

                         current practice, policy, and legal requirements. 

                       a.	 The MFCU documents that it has reviewed the MOU at least every
                           5 years, and has renegotiated the MOU as necessary, to ensure that it
                           reflects current practice, policy, and legal requirements.
                       b.	 The MOU meets current Federal legal requirements as contained in
                           law or regulation, including 42 CFR 455.21, “Cooperation with State
                           Medicaid fraud control units,” and 42 CFR 455.23, “Suspension of
                           payments in cases of fraud.”
                       c.	 The MOU is consistent with current Federal and State policy,
                           including any policies issued by OIG or the Centers for Medicare &
                           Medicaid Services (CMS).
                       d.	 Consistent with performance standard 4, the MOU establishes a
                           process to ensure the receipt of an adequate volume and quality of
                           referrals to the Unit from the State Medicaid agency.
                       e.	 The MOU incorporates by reference the CMS performance standard
                           for Referrals of Suspected Fraud from a State Agency to a Medicaid
                           Fraud Control Unit.
                   11. 	A Unit exercises proper fiscal control over Unit resources.
                       a.	 The Unit promptly submits to OIG its preliminary budget estimates,
                           proposed budget, and Federal financial expenditure reports.
                       b.	 The Unit maintains an equipment inventory that is updated regularly
                           to reflect all property under the Unit’s control.
                       c.	 The Unit maintains an effective time and attendance system and
                           personnel activity records.
                       d.	 The Unit applies generally accepted accounting principles in its
                           control of Unit funding.
                       e.	 The Unit employs a financial system in compliance with the standards
                           for financial management systems contained in 45 CFR 92.20.
                   12. 	A Unit conducts training that aids in the mission of the Unit.
                       a.	 The Unit maintains a training plan for each professional discipline
                           that includes an annual minimum number of training hours and that is
                           at least as stringent as required for professional certification.




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                 24
                       b.	 The Unit ensures that professional staff comply with their training
                           plans and maintain records of their staff’s compliance.
                       c.	 Professional certifications are maintained for all staff, including those
                           that fulfill continuing education requirements.
                       d.	 The Unit participates in MFCU related training, including training
                           offered by OIG and other MFCUs, as such training is available and as
                           funding permits.
                       e.	 The Unit participates in cross training with the fraud detection staff of
                           the State Medicaid agency. As part of such training, Unit staff
                           provide training on the elements of successful fraud referrals and
                           receive training on the role and responsibilities of the State Medicaid
                           agency.




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                   25
                   APPENDIX C
                   Detailed Methodology
                   Data collected from the seven sources below was used to describe the
                   caseload and assess the performance of the Unit.
                   Data Collection
                   Review of Unit Documentation. Prior to the onsite review, we analyzed
                   information from several sources regarding the Unit’s investigations and
                   referrals for prosecution of Medicaid cases. Specifically, we collected and
                   analyzed information about the number of referrals the Unit received, the
                   number of investigations the Unit opened and closed, the outcomes of those
                   investigations, and the Unit’s case mix. We also collected and analyzed
                   information about the number of cases that the Unit referred for prosecution
                   and the outcomes of those prosecutions. We gathered this information from
                   several sources, including the Unit’s Quarterly Status Reports, annual reports,
                   recertification questionnaire, policy and procedures manuals, and the MOU
                   with the State Medicaid agency. Additionally, we confirmed with the Unit
                   director that the information we had was current as of May 2013. As
                   necessary, we requested any additional data or clarification.
                   Review of Financial Documentation. We reviewed Unit policies and
                   procedures related to budgeting, accounting systems, cash management,
                   procurement, property, and personnel to evaluate internal controls and design
                   our tests for financial documentation. We reviewed the Unit’s claimed
                   $13.2 million ($9.7 million Federal share and $3.5 million State share) in
                   grant expenditures for FYs 2010 through 2012 to (1) reconcile final Financial
                   Status Reports and the supporting documentation; (2) purposively select and
                   review transactions within direct cost categories to determine whether costs
                   were allowable; and (3) verify that no indirect costs were reported during the
                   period. We reviewed records from the Payment Management System to
                   identify any unusual patterns of drawdowns (withdrawals from the grant
                   funds). Finally, we reviewed revenue accounts to identify program income
                   amounts.
                   Interviews with Key Stakeholders. In April 2013, we conducted structured
                   interviews with key stakeholders who were familiar with the operations of
                   the Unit. Specifically, we interviewed officials in the U.S. Attorneys’
                   Offices from the Northern and Southern districts of Indiana, and staff from
                   the following agencies under the umbrella of Indiana’s Family and Social
                   Services Administration (FSSA): OMPP, and its Program Integrity Unit; the
                   Division of Aging; the Office of General Counsel; the State Long-Term Care
                   Ombudsman; and Adult Protective Services. We also interviewed staff from
                   the Division of Long-Term Care within the Indiana Department of Health.
                   Additionally, we interviewed Special Agents from OIG’s Chicago regional


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                26
                   office who work regularly with the Unit. Each of these interviews focused
                   on the Unit’s interaction with external agencies. We used the information
                   collected from these interviews to develop subsequent questions for
                   interviews with Unit management.
                   Survey of Unit Staff. In April 2013, we conducted an online survey of all
                   nonmanagerial Unit staff within each professional discipline (i.e.,
                   investigators, auditors, and attorneys) as well as support staff and the support
                   staff supervisor in the Litigation section.35 We requested and received
                   responses from each of the 43 staff members, a 100-percent response rate.
                   Our questions focused on operations of the Unit, opportunities for
                   improvement, and practices that contributed to the effectiveness and
                   efficiency of Unit operations and/or performance. The survey also sought
                   information about the Unit’s compliance with applicable laws and
                   regulations.
                   Interviews with Unit Management. During our May 2013 onsite review, we
                   conducted structured interviews with the Unit director, deputy director, and
                   the four supervisors in the Investigations section. We asked these individuals
                   to provide additional information to better illustrate the Unit’s operations,
                   identify opportunities for improvement, identify practices that contributed to
                   the effectiveness and efficiency of Unit operations and/or performance, and
                   clarify information obtained from other data sources.
                   Onsite Review of Case Files. The Unit provided a list of 4,886 cases that
                   were open at any point during FYs 2010 through 2012. We excluded from
                   our analysis 2,469 of these cases that the Unit had categorized as “global” or
                   “closed without investigation.” We then selected a simple random sample of
                   100 cases from the remaining 2,417 cases. From these 100 cases, we
                   selected a simple random sample of 50 cases for a more in-depth review of
                   selected issues, such as the timeliness of investigations and case
                   development. We excluded an additional three ineligible cases in our sample
                   that were not initially identified by the Unit as global cases. In our final case
                   file analysis, we reviewed the remaining 97 cases for documentation of
                   supervisory approval for the opening of cases, documentation of the closing
                   of cases (if applicable), and documentation of supervisory case file reviews.
                   Finally, we projected the results of our case file reviews to an estimated
                   population of 2,344 Unit cases categorized as nonglobal, of which an
                   estimated 1,595 represented closed case files.
                   Onsite Review of Unit Operations. As part of our May 2013 onsite visit, we
                   reviewed the Unit’s workspace and operations. Specifically, we visited the


                   35
                      The supervisor within the Litigation section supervises support staff—not investigators,
                   auditors, or attorneys. Therefore, we included this individual in our staff survey.


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                                  27
                   Unit’s central office in Indianapolis. We observed the Unit’s offices and
                   meeting spaces, security of data and case files, location of select equipment,
                   and the general functioning of the Unit.
                   Data Analysis
                   We analyzed data to identify any opportunities for improvement and any
                   instances in which the Unit did not fully meet the performance standards or
                   was not operating in accordance with laws, regulations, and policy
                   transmittals.36 In addition, we noted practices that appeared to be beneficial
                   to the Unit. We based these observations on statements from Unit staff, data
                   analysis, and our own judgment. We did not independently verify the
                   effectiveness of these practices, but included the information because it may
                   be useful to other Units in their operations.




                   36
                      All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu.


Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                             28
                      APPENDIX D
                      Investigations Opened and Closed by Provider Category for
                      Federal Fiscal Years 2010 Through 2012
        Table D-1: Fraud Investigations

         Provider Category                        FY 2010                  FY 2011             FY 2012

         Facilities                           Opened      Closed      Opened      Closed   Opened        Closed

            Hospitals                              14          11           12       20        14           14

            Nursing Facilities                     21          18           19        13       22            21
            Other Long-Term Care
                                                    5           4            3         2        8             7
            Facilities
            Substance Abuse Treatment
                                                    0           0            0         0        0             0
            Centers
            Other                                   2           5           10        38        7             2

           Subtotal                                42          38           44        73       51            44

         Practitioners                        Opened      Closed      Opened      Closed   Opened        Closed
            Doctors of Medicine or
                                                   23          29           26        22       24            18
            Osteopathy

            Dentists                               25          26           15        12       11             9

            Podiatrists                             2           3            0         1        0             1

            Optometrists/Opticians                  2           3            1         2        2             1

            Counselors/Psychologists                2           3            2         2        2             2

            Chiropractors                           3           4            1         5        4             1

            Other                                   1           2            2         0        0             1

           Subtotal                                58          70           47        44       43            33

         Medical Support                      Opened      Closed      Opened      Closed   Opened        Closed

            Pharmacies                              7          12           10        13       16             6
            Pharmaceutical
                                                   74          22           94        29       39            11
            Manufacturers
            Durable Medical Equipment
                                                   14           9           17        12       16             5
            and/or Supplies
            Laboratories                           11           0            3         4        3             0

            Transportation Services                12          29           13        18       13            11

            Home Health Care Agencies              10          10            7         6        8             6

            Home Health Care Aides                  2           1            0         1        2             1

            Nurses/Physician Assistants/
            Nurse Practitioners/Certified          10          16           13        15        9            18
            Nurse Aides

            Radiologists                            1           0            1         0        0             2

            Medical Support—Other                  29          37           18        16       29            18

           Subtotal                               170         136          176       114      135            78




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                              29
         Table D-1 (Continued): Fraud Investigations

         Provider Category                              FY 2010              FY 2011               FY 2012

         Program-Related                             Opened   Closed      Opened   Closed      Opened        Closed

             Managed Care                                 1          0         0          0         0             0

            Medicaid Program
                                                          0          0         0          0         1             0
            Administration

            Billing Company                               0          0         0          0         0             0

            Other Program Related                         4          2         3          2         1             0

             Other—Global                                31          8        27         11        14             4

           Subtotal                                      36         10        30         13        16             4

           Total Provider Categories                    306        254       297        244       245           159

        Source: Unit response to OIG data request.

        Table D-2: Patient Abuse, Neglect, and Funds Investigations

         Provider Category                              FY 2010              FY 2011               FY 2012

                                                     Opened   Closed      Opened   Closed      Opened        Closed

             Nursing Facility                         1,148       1,184    1,088       1,048      441           492

             Other Long-Term Care                        92         87        82         84       204           177

            Nurses/Physician Assistants/
            Nurse Practitioners/Certified                15         36         8         20         8            30
            Nurse Aides
             Home Health Aides                            2          0         0          1         1             2

             Other                                       58         63        50         49        44            45

           Total                                      1,315       1,370    1,228       1,202      698           746

        Source: Unit response to OIG data request.




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                                  30
                       APPENDIX E
                       Medicaid Fraud Control Unit Referrals by Provider Category for
                       Federal Fiscal Years 2010 Through 2012
                                             FY 2010                                     FY 2011                          FY 2012
                                               Abuse                                       Abuse                           Abuse
                                                             Patient                                    Patient                      Patient
  Referral Source               Fraud            and                        Fraud            and                  Fraud      and
                                                             Funds                                      Funds                        Funds
                                              Neglect                                     Neglect                         Neglect
  Medicaid Agency –
  Program Integrity
  Unit / Surveillance
  and Utilization
  Review Unit (Family                21               1              0          14                  5        0       25         0         0
  and Social Services
  Administration,
  Office of Medicaid
  Policy and Planning)
  Medicaid Agency –
                                      3               7              0            3                 2        0        1         0         0
  Other
  State Survey and
  Certification
  (Indiana State                      5          1,187               0            7          1,074           3       17      500*         5
  Department of
  Health)
  Other State
                                      5               6              0          10                  6        0        2         9         0
  Agencies

  Licensing Board                     6               1              0            2                0         0       1          0         0

  Law Enforcement                    13              34              0          15                 22        1       13        22         2

  Office of Inspector
                                      1               2              0          12                  9        0        5         1         0
  General

  Prosecutors                         2               1              1            0                4         2        1         3         2

  Providers                          24            129               0          16             226           4      50        140         3

  Provider
                                      0               0              0            0                0         0        0         0         0
  Associations

  Private Health
                                      7               0              0            2                0         0        4         0         0
  Insurer

  Long-Term Care
                                      1               6              0            0                7         0       0          7         0
  Ombudsman

  Adult Protective
                                      3              20              0            0                23        1        1        18         1
  Services

  Private Citizens                 168             440               1         189             699           4     132        265         7

  MFCU Hotline                        0               0              0            0                0         0       0          0         0

  Other                              31               3              0            2                2         1        2         1         0

    Total                          290           1,837               2         272           2,079          16     254        966        20

    Annual Total                                                2,129                                    2,367                        1,240

 Source: OIG analysis of Indiana’s MFCU Revised Quarterly Statistical Reports, FYs 2010–2012.

 * The Unit is unable to provide the number of referrals that were not reported to OIG for 2012.




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                                                 31
                     APPENDIX F
                     Point Estimates and 95-Percent Confidence Intervals Based on
                     Reviews of Case Files
                     We calculated confidence intervals for key data points for our reviews of
                     case files. The sample sizes, point estimates, and 95-percent confidence
                     intervals are given for the each of the following:
 Table F-1: Confidence Intervals for Case File Review Data

                                                       Sample
   Data Element Description                                       Point Estimate   95-Percent Confidence Interval
                                                         Size

   Case files missing supervisory approval
                                                             97           77.3%                     68.0%–84.6%
   for the opening of investigations
   Closed-case files missing documented
   supervisory approval for the closing of                   66           18.2%                     10.6%–29.3%
   investigations
   Case files missing one or more
                                                             97           69.1%                     59.3%–77.4%
   documented supervisory reviews

  Source: OIG analysis of Indiana’s MFCU case files, 2014.




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                                     32
                   APPENDIX G
                   UNIT COMMENTS




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)   33
Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)   34
Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)   35
                      Finding: The Unit did not timely refer 25 convictions to OIG for the purpose of program
               exclusion.


              Response: The Unit concurs that some referrals were made past the 30 day limit set by
              Performance Standard 8(f). Performance Standard 8(f) does not reflect the abilities of Units such
              as Indiana's, which are reliant on county prosecutors to inform the Unit when a plea is negotiated
              and entered on a particular case. Since the Unit itself has no independent prosecution power, this
              reliance results sometimes in pleas being negotiated without the knowledge of the Unit. As a
              result, the lack of prosecution power and reliance on 91 county prosecutors makes the 30-day
              requirement unreasonable. However, the Unit recognizes that the current 30-day reporting policy
              is the rule and important for program integrity, therefore, Indiana will strive to report all
              convictions as required. The 30-day rule is unreasonable and the OIG has acknowledged as
              much. It is the Unit's understanding that the OIG intends to return to this rule the language
              recently omitted by Performance Standard 8(f) which recognized that the 30-day timeframe
              could not reasonably be met by some Units.

                      The Indiana Medicaid Fraud Control Unit is appreciative of your work in this audit. If
              you require additional information, please do not hesitate to contact me. I can be reached by
              calling (317) 915-5300 or matthew.whitmire@atg.in.gov.

                                                                                 Sincerely,
                                                                                      /S/
                                                                                 Matthew Whltmire
                                                                                 Director, Indiana MFCU

              Cc: Greg Zoeller, Indiana Attorney General




                                                              4




Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)                                    36
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Brian T. Whitley, Regional 

                   Inspector General for Evaluation and Inspections in the Kansas City regional 

                   office. 

                   Michael J. Brown served as the project leader for this study. Other Office of 

                   Evaluation and Inspections staff who conducted the study include 

                   Thomas Brannon and Teresa Dailey. Office of Audit Services staff who 

                   conducted the study include Brian Anderson and Randall Martz. Office of 

                   Investigations staff who conducted the study include Monteen Calvert. 

                   Office of Investigations staff who provided support include Jason Weinstock. 

                   Central office staff who provided support include Alexis Lynady, 

                   Christine Moritz, Andrew VanLandingham, and Sherri Weinstein. 





Indiana State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00250)               37
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
